<html>
<title> - H.R. 1773, THE NATIVE AMERICAN VETERAN HOME LOAN ACT; H.R. 3082, THE VETERAN-OWNED SMALL BUSINESS PROMOTION ACT OF 2005; AND FOUR DRAFT BILLS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Publishing Office]


 
                      H.R. 1773, THE NATIVE AMERICAN 
                   VETERAN HOME LOAN ACT; H.R. 3082, THE 
                       VETERAN-OWNED SMALL BUSINESS 
                PROMOTION ACT OF 2005; AND FOUR DRAFT BILLS
=============================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           VETERANS' AFFAIRS

                        HOUSE OF REPRESENTATIVES

                             SUBCOMMITTEE ON
                          ECONOMIC OPPORTUNITY

                       ONE HUNDRED NINTH CONGRESS


                              first session

                                 -------

                              July 27, 2005

                                 -------

                            Serial No. 109-20



                    U.S. GOVERNMENT PRINTING OFFICE
22-709                      WASHINGTON : 2005
_____________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001

<PAGES NOT AVAILABLE IN TEXT FORMAT>

                      H.R. 1773, THE NATIVE AMERICAN 
                   VETERAN HOME LOAN ACT; H.R. 3082, THE 
                       VETERAN-OWNED SMALL BUSINESS 
                PROMOTION ACT OF 2005; AND FOUR DRAFT BILLS


Wednesday, July 27, 2005

U.S. House of Representatives,     
Subcommittee on Economic Opportunity,
Committee on Veterans' Affairs,
Washington, D.C.

    The Subcommittee met, pursuant to call, at 3:00 p.m., in Room 334, Cannon House Office Building, Hon. John Boozman [Chairman of the Subcommittee] Presiding.
 
    Present:  Representatives Boozman, Herseth, and Evans.  
 
    Mr. Boozman.  The Subcommittee on Economic Opportunity will come to order.
    As you may know, we just completed a markup of two bills that I am very pleased to send to the full Committee for consideration.  Our next bit of business is to receive testimony on two introduced bills and four draft bills.
    Two of the drafts deal with adaptive housing-related issues.  H.R. 1773 would amend the Native American Loan Guaranty Program, sponsored by Ranking Member Ms. Herseth, one draft codifies the VA's special events program, H.R. 3082, would increase opportunities for veteran- and disabled veteran-owned small businesses at the VA, and finally a draft to establish national quantification standards for Disabled Veteran Outreach Program Specialists and Local Veterans 
Employment Representatives.
    The draft special events bill is intended to codify the VA special events program.  This program includes a wide variety of events ranging from things like the recent 75th anniversary celebration to art shows and sporting events for disabled veterans.
    Let me be clear about the intent of the bill, we just want to ensure that these types of events continue.
    Obviously, the bill emphasizes sports, but not at the exclusion of the other types of rehabilitative and special events.  Anyone who has attended events like the Winter Sports Clinic, the Golden Age Games, the Wheelchair Games and the Arts Festival can only come away impressed by the effect these opportunities had on the participants.
    I will note that Ms. Bo Derek has lent her celebrity to these programs in the last 5 years during the recent Wheelchair Games.  And I didn't know until we got into this that they do play rugby in wheelchairs.  Ms. Derek remarked that disabled veterans have a great advantage over nonveterans with the same types of disabilities because of the opportunities offered by the special events programs.
    You will also note that the draft bill requires VA to achieve a relationship with the U.S. Olympic Committee and subsidiaries.  We are doing that to encourage more veteran participation in competitive sports.  And I look forward to hearing from the USOC about that today.
    Our draft adaptive housing grant bill would increase the amount of the grant and provide an opportunity for grants to be made to renovate the homes of parents or siblings of severely disabled veterans.  I believe this is important because many of our wounded spend all or part of their convalescence with their immediate families before moving out, and a small grant to renovate those homes seems totally appropriate.
    Regarding veterans and service-disabled veteran-owned businesses, Public Laws 106-50 and 108-183 established a procurement goal of 3 percent and authorized set-asides for Federal agencies.  Unfortunately, to date, virtually no Federal agency, including the VA, has achieved either the spirit or will of the law.  The intent of H.R. 3082 is to rectify that as far as the VA is concerned.
    The bill will essentially change what has been a �may� to a �shall� in terms of goals, and since it is the VA, I strongly believe the VA should set the example for the rest of the Federal Government.  And so my bill sets a 9 percent total, and also does things like grandfather qualifying business for 10 years after the death of a veteran owner.
    The Veterans Employment and Training Service of the Department of Labor provides Federal grants for States to employ Disabled Veteran Outreach Program Specialists and Local Veterans Employment Representatives, or as they are commonly called, DVOPS and LVERs.  These are State employees, and the qualifications and pay scales vary significantly.
    For example, we are told the pay ranges from a low $20,000 in some States up to over $100,000 in other States.  Clearly, if one believes that you get what you pay for, there is likely a wide disparity in the qualifications among the States.  Our draft bill would require the Department of Labor, through the Veterans Employment and Training Service, to set national standards for initial hires as well as training requirements for those on the job.
    I am sure this bill will concern some current DVOPS and LVERs.  I am not trying to dictate the terms of the qualifications, but anyone who believes in the status quo is not putting veterans first, and we do that by requiring the States to ensure that highly qualified and motivated employment specialists fill those jobs.
    There are many dedicated DVOPS and LVERs out there who do a great job for veterans, and the intent of this draft bill is to make them even more productive in the wide variety of duties laid out in title 38.  That is why the draft bill grandfathers existing employees and gives them 5 years to achieve the training requirements for continuing employment.
    Let me repeat, the objective of this legislation is to improve service to veterans, and that is best achieved by improving the skill levels of all those charged with putting veterans and disabled veterans in good-paying jobs.
    Finally, as I said, Ms. Herseth is the sponsor of H.R. 1773.  I am also a cosponsor, and I now yield to her to explain the bill and for any remarks she may have.
    Ms. Herseth.  Thank you, Mr. Chairman, and thank you for holding this legislative hearing.  I would like to welcome all the witnesses.  I look forward to their testimony concerning their positions on many of the bills before the Subcommittee today, and especially a special welcome to our colleague, the delegate from American Samoa, Mr. Faleomavaega.  
    Mr. Chairman, I am particularly pleased that we have included on today's agenda, H.R. 1773, the Native American Veteran Home Loan Act, a bill I introduced along with a number of my House colleagues and, Mr. Chairman, you as well, in April.
    H.R. 1773 would make permanent the Native American Housing Loan Pilot Program, administered by the VA since its inception in 1983.  By all accounts, the pilot program is a great success and, in fact, currently has a negative subsidy -- that is, it actually pays for itself.
    Additionally, I am pleased we are examining other draft measures aimed at expanding eligibility and increasing the grant amounts under the VA's adaptive housing program.  As more and more of our servicemembers and veterans return with injuries, we must be prepared to ease their transition in many ways, including providing for the means to adapt their living quarters as a result of any disabilities, as well as providing broad and effective employment system.
    Yesterday we marked the 15th anniversary of the Americans with Disabilities Act.  We have made progress in the area of including persons with disabilities into everyday activities.  It is incumbent for us to also include the Nation's servicemembers and veterans in this ongoing progress.
    Mr. Chairman, I appreciate the witnesses' views and their efforts to assist us in crafting legislation that is effective and fiscally responsible.  I hope that we will use the witnesses' testimony to guide us in making helpful and reasonable improvements to the measures that we consider today.  Thank you, Mr. Chairman.
    I look forward to today's testimony and yield back the balance of my time.
 
    Mr. Boozman.  Thank you.
    As Ms. Herseth noted, we do have a very distinguished member with us today, Mr. Faleomavaega, representing the island of American Samoa.  I have a fairly short travel to my district, compared to whatever you have got to have, as far as frequent flier miles and things like that.  You have to be the champion in the House.
    We want to welcome you to the Veterans' Affairs Committee.  And you are free to go ahead with your testimony with any remarks you may have.

STATEMENT OF THE HON. ENI F.H. FALEOMAVAEGA, A 
    DELEGATE TO CONGRESS FROM THE TERRITORY OF AM-
    ERICA SAMOA

Mr. Faleomavaega.  Mr. Chairman, I want to thank you and our distinguished Ranking Member, Ms. Herseth, for allowing me the opportunity to testify before your Committee concerning H.R. 1773.
    I know I join my colleagues that make up the Native American Indian Caucus.  I know that Congressman J.D. Hayworth and Congressman Dale Kildee and many other members, both Republican and Democratic members, who are very supportive of Native American issues.
    I just wanted to initially state that I would like to include my statement, to be made part of the record.  And I will just kind of go over extemporaneously the statement and the substance of my remarks concerning the bill.
    This is a very historical occasion for introducing this legislation, Mr. Chairman.  It has been my experience from well over 10 years now that we periodically keep passing authorizing legislation to allow this pilot program to continue to see if we can give assistance to many of our veterans who live on reservations.  This is in the instance of Native American Indians, Native Alaskans, also Native Hawaiians who live in homestead lands -- a very particular situation that allows native Hawaiians to do that -- and even in my home district where our veterans are allowed to live on what is known as communal lands.
    This special legislation has been a tremendous help to many of our veterans who would not have qualified otherwise, simply because there were no lending institutions that are willing to participate and to work with our veterans who live in these different situations.
    For your information, Mr. Chairman, six of my soldiers now have died from the war in Iraq.  There was a recent article in USA Today, about 2 weeks ago, giving the per capita ratio casualty among the States and territories, and interestingly enough, the State of Vermont is highest with about 11.6 percent of the casualty of the soldiers who have died from this conflict in Iraq.
    Well, my humble district is 86.6 percent, the highest in the whole United States and territories in terms of the numbers of my soldiers -- I call them warriors -- who, unfortunately, have been killed in this conflict.
    I guess it is part of our culture.  I think these romantic writers have done a great injustice in painting the picture of these Polynesian islanders living under coconut trees with ukuleles and strumming away, and that is all they are good for is happy-go-lucky natives, contrary to the fact that our culture is -- among the Polynesians, were very warrior oriented, very similar to the American Indians.  That is probably the reason why I have a couple thousand of my people who are in the various branches of the Armed Forces.
    When we did the pilot program, Mr. Chairman, it was an excellent program, when several of my constituents, who happen to be non-American Samoans, are U.S. Citizens, but married to American Samoan residents, came up to me and said, �Well, what about us?  We should be given the same opportunity even though we are not American Samoans.�  and I fully agreed with the concerns that some of my constituents have.  Well, they live there.  They are going to die there.  Why shouldn't they be given the same opportunity?
    This is a real -- it is a very unique program, Mr. Chairman, for our veterans, where the Veterans Administration provides the funding and then they go through a screening agency or development bank, for example, which then allows them to be participants.  And this is where section 3 of H.R. 1773 also provides similar loan programs for our veterans who are not Native Americans, but who are spouses to Native Americans living there, whether it be on a reservation or homestead land or communal land.
    And that is basically the essence of the bill.  And what the bill provides is no longer as a pilot program, but making this program as an integral part of our veterans system to give assistance to these veterans.
    I would be remiss if I did not express my particular thank you to Mary Ellen McCarthy for her being so patient in trying to work out the proper language and seeing that this bill would include this provision that would be helpful to our non-American, non-native veterans, but who are spouses of our veterans.  And they should be given the same opportunity.  And that is basically what I am trying to plead here for those vets.
    And again, Mr. Chairman, I really want to thank you for this and the opportunity; and I will be glad to answer any questions members may have.
    Mr. Boozman.  Thank you very much for your testimony and remarks.  I read the article that you referred to.  And to be honest, I knew that the percentages were way up, but I didn't realize that -- you know, that they were in that neighborhood.  You have traveled extensively in many places.  You truly are very, very well represented.  And we are proud of the effort and sacrifice that is being made.
    Do you have any questions?
    Ms. Herseth.  I have no questions, Mr. Chairman.  I just appreciate the gentleman being here before the Committee today in support of this important bill.
    Mr. Boozman.  Thank you very much.
    Mr. Faleomavaega.  Thank you, Mr. Chairman.  And I would gladly invite both you and our Ranking Member, please come and visit my humble district.  And of course, you will have to pay your own way to come down.  But once you are there, then it is my turn, and I will be more than happy to accommodate your needs.
    Mr. Boozman.  Thank you very much.  Maybe we will take you up on that.
    Mr. Faleomavaega.  Thank you.
 
    [The statement of Mr. Faleomavaega appears on p. 34]

    Mr. Boozman.  Okay, now let's have our next panel.
    Our next panel is comprised of Mr. John Register, Manager of the Paralympic Academy and Military Programs at the U.S. Olympic Committee; Mr. Brian E. Lawrence, Associate National Legislative Director at DAV; Mr. Carl Blake, Associate Legislative Director for PVA; and Ms. Debbie Fryar, Deputy Director for Government Relations, National Military Family Association.

STATEMENTS OF JOHN REGISTER, MANAGER, PARA-
    LYMPIC ACADEMY AND MILITARY PROGRAMS, UNITED
    STATES OLYMPIC COMMITTEE; BRIAN E. LAWRENCE, 
    ASSISTANT NATIONAL LEGISLATIVE DIRECTOR, DIS-
    ABLED AMERICAN VETERANS; CARL BLAKE, ASSOCIATE
    LEGISLATIVE DIRECTOR, PARALYZED VETERANS OF AM-
    ERICA; AND DEBORAH KLINE FRYAR, DEPUTY DIRECTOR,
    GOVERNMENT RELATIONS, NATIONAL MILITARY FAMILY
    ASSOCIATION 

    Mr. Boozman.  Why don't you go ahead and start us off, John, once you get yourself situated?



STATEMENT OF JOHN REGISTER

    Mr. Register.  Thank you.  Good afternoon, Mr. Chairman and members of the Subcommittee.  My name is John Register, and I am representing the United States Olympic Committee, a privately funded organization chartered by Congress through the Ted Stevens Olympic and Amateur Sports Act.
    The Association's principal function is to field for the United States the most competent representation to the Olympic, Pan American and Paralympics games, the latter being a competition for elite disabled athletes conducted at the same Olympic approximately 2 weeks following the Summer and Winter Olympic Games.
    Let me give youa quick background on myself.  I am an Army veteran who served in Operation Desert Shield and Desert Storm, three-time All American track and field athlete, and graduate of the University of Arkansas.  I have twice competed in the Olympic trials and am a two-time Paralympic Athlete, 1996 to 2000, taking the silver medal in the Sidney Australia in the long jump becoming the only American athlete to jump over 18 feet without a leg or a knee in the 
process.
    My current position with the USOC is manager of the Paralympic academy and military programs, and the reason I am here today is to discuss legislation that would create within the Department of Veteran Affairs an Office of National Disabled Veteran Sports Programs and Special Events, a proposal that the USOC enthusiastically endorses.  Quite simply, such an office provides the potential for a highly synergistic partnership between the USOC and the Department of Veterans Affairs that would enable us to significantly expand the work that the USOC, through its U.S. Paralympics division, to bring Paralympic sport to disabled American servicemen and -women, many of whom have incurred service-connected injuries while serving in the Middle East.
    My injury occurred in freak hurdle accident, after I returned from the first Gulf War and costing my left leg just above the knee.  And my initial reaction really was not to return to athletics and to make the Paralympics, but rather my reaction had to do with my identity.  Who was I now?  Was I still a husband to my wife?  Will she still accept me in this new condition?  Was I still a father to my boy?  Was I still a son to my mother and father?  Was I still a soldier?
    It was sports that played a critical role in my reaffirmation of who I was.  And I see a great similarity between my situation with yesterday's and today's veterans.  During World War II, it was discovered that sports and physical activity could play an important and unique role in the rehabilitation of military personnel with newly acquired disabilities.  Young servicemembers who had just returned from World War II, who were undergoing rehabilitation, were predictably drawn to sports and other team activities.
    The attraction of sport for the new set of veterans serves as more than just a rehabilitation technique.  These sports served as a source of motivation and a path to a fuller life for young people in the aftermath of a disability.
    With the onset of hostilities in Afghanistan and Iraq, a new generation of U.S. Paralympic, U.S. military personnel with disabilities has emerged.  And these newly disabled men and women are young, ambitious; they are goal oriented and in their physical prime.  Sport has played an integral role for returning veterans of World War II, Korea and Vietnam, now has the capacity to assist military personnel with adjustment to life with a disability.  The United States Olympic Committee and its Paralympic partners recognize the opportunity to play a key role in the lives of these returning military personnel with these newly acquired disabilities.
    To date, the United States Olympic Committee has conducted Paralympic sports programs and clinics at Walter Reed Army Medical Center and Brooke Army Medical Center since January 2005 and March of 2004.  And each time I leave the sport clinics, I get the same reaction, disabled vets are at first a little bit skeptical, but after a few minutes of competing in the sport, the disability disappears, and then the game is on.
    In the fall of 2004, the USA Paralympic team participated in sports administration of clinics with disabled military personnel from Walter Reed; and in the fall of 2005, USOC will host up to 75 disabled servicemembers to two Paralympic sports programs and military clinics.  The USOC's Paralympic partners also have been active in these efforts, especially Disabled Sports USA at Walter Reed and Blaze Sports Clubs of America and Brooke Army Medical Center.  Additionally, the Paralympic partners have encouraged the participation of disabled military personnel in local, regional and national competitions where they have the opportunity to participate in sports clinics and observe elite athletes in action.
    While sports clinics are a great way to introduce veterans to Paralympic sports, but a more comprehensive program is needed to ensure that they realize the full benefits of sports participation.  While the resources of the USOC and our various partners are limited, unfortunately the pool of disabled military and newly acquired disabilities are growing.
    The proposed Office of the National Disabled Veterans Sports Programs and Special Events would have authorization to bring expanded reach and resources to serve these veterans.  The USOC would welcome the opportunity to work with this office to further develop the program, services and events for the Nation's disabled veterans.
    The USOC and the Department of Veterans Affairs are developing a Memorandum of Understanding that will strengthen and expand upon existing sport programs for disabled veterans and will expand the services to the disabled veterans nationwide, and specifically in the vicinity of VA medical centers and veterans centers, through accessing the resources and efforts of local community-based Paralympic organizations.  The creation of this new office would bring national planning, coordination and support to these expanded efforts.
    And let me be clear about why the United States Olympic Committee is so interested in veterans programs and what we are trying to achieve.  We believe that we have a responsibility to bring our talents and those of our principal assets, our Olympic and Paralympic athletes, to bear on issues that affect all levels of society.  Assisting disabled veterans to lead full, active and meaningful lives by introducing them to sports is an area where we have talent and resources and where we can make a meaningful contribution.
    And further, the more men and women that enter the participation pyramid at the base, the greater opportunity there is for more elite, Olympic and Paralympic caliber athletes to develop and rise to the top.
    The programs conducted at Walter Reed and Brooke Army Medical Center and other locations throughout the country, have been encouraging and have demonstrated the value of sports in the rehabilitation of disabled servicemen and women, but we know that so much more is needed.
    The partnership between the United States Olympic Committee and the Department of Veterans Affairs being formed through the memorandum of understanding would be greatly enhanced by the creation of this new Office of National Disabled Veterans Sports Programs and Special Events, and I am confident these efforts will result in high-quality sports programs and services for disabled veterans who so greatly deserve the best efforts of us all.  Thank you.
    Mr. Boozman.  Thank you, Mr. Register.
 
    [The statement of John Register appears on p. 35]

    Mr. Boozman.  Mr. Lawrence.

STATEMENT OF BRIAN E. LAWRENCE  

    Mr. Lawrence.  Chairman Boozman, Ranking Member Herseth, I am pleased to have the opportunity to present the views of Disabled American Veterans.  DAV commends the Subcommittee for its continued bipartisan and heartfelt efforts to improve opportunities for disabled veterans and their families.  On behalf of our 1.3 million members, we appreciate the bills and the draft bills that are under consideration today.
    You have my written statement, so I won't reiterate my views on every bill, but I would like to emphasize our support for the draft bill to codify and fund the Office of National Disabled Veterans Sports Programs and Special Events.
    This draft bill would fulfill the resolution adopted by the membership of the DAV to provide a separate line item appropriation in the VA budget to ensure the continuance of these worthy programs, which are profoundly beneficial in helping veterans overcome or mitigate the physical and emotional impact of severe disabilities.
    The DAV applauds the Subcommittee for recognizing the value and importance of Disabled Veterans Sports Programs and Special Events and for having the foresight to ensure they are available to disabled veterans in the future.
    We hope that you will consider our recommendations to include language in the bill placing special events office under the Veterans Health Administration and to require VHA to develop a comprehensive Memorandum of Understanding of cosponsors and to provide a detailed accountability for all special events office funds, including cosponsorship fees.
    These recommendations were derived with the aid and input of DAV's Director of Voluntary Services, Ed Hartman.  Mr. Hartman, who was fortunately able to join us for today's hearing, has been heavily involved with the National Disabled Veterans Winter Sports Clinic for the past several years.
    Mr. Chairman, that concludes my statement, and I will be happy to answer any questions that may arise as a result of this testimony.  Thank you.
    Mr. Boozman.  Thank you.
 
    [The statement of Brian E. Lawrence appears on p. 40]

    Mr. Boozman.  Mr. Blake.

STATEMENT OF CARL BLAKE

    Mr. Blake.  Mr. Chairman, Ranking Member Herseth, PVA would like to thank you for the opportunity to testify today on the proposed legislation.
    PVA particularly appreciates the efforts to address the special housing needs of the severely disabled veterans.  PVA fully supports the proposed legislation that would require the VA to award 9 percent of procurement contracts to small businesses owned by veterans and, specifically, disabled veterans.
    As a participating member of the Task Force For Veterans Entrepreneurship, PVA works with many of the veterans service organizations present today to ensure that veterans and disabled veterans are given proper consideration for contracting opportunities within the Federal Government.
    As we have stated in the past, the flaw we saw in Public Law 106-50, the Veterans Entrepreneurship and Small Business Development Act of 1999, is that it establishes 3 percent as merely a goal.  PVA and all the organizations that are comprising the Task Force For Veterans Entrepreneurship have argued that 3 percent should be mandated.
    Federal agencies generally ignore this 3 percent goal because they know that no real sanctions can be levied against them.  For this reason, we welcome the requirement that VA offer 9 percent of procurement contracts to veteran-owned and small businesses and step up and set the bar by which all other Federal agencies seek to achieve.
    PVA supports the creation an Office of National Disabled Veterans Sports Programs and Special Events in the creation of a director of this office.  PVA has a specialist in this office as we are the chief cosponsor, along with the VA, of the National Veterans Wheelchair Games.
    We would like to recommend, however, that this office be removed from the VA Office of Public Affairs and be consolidated under the Veterans Health Administration.  Although these events serve as a good social event for veterans to interact, participation in these events is not just about being a participant in an elite athletic event.  The ultimate purpose of the Wheelchair Games, the Winter Sports Clinic, the Golden Age Games and the Creative Arts Festival is to provide the best rehabilitative therapy to maximize independence and enhance the quality of life for severely disabled veterans.  Given that rehabilitation is part of the mission of VHA, we believe that they should be the controlling authority.
    And PVA also believes that a separate line item appropriation should be included in the VA budget to support these events.  This would remove some of the burden that the VA carries when trying to raise funds to support these programs and allow it to focus on the actual purpose of the event.
    PVA fully supports this proposed legislation that would increase the amount of the specially adapted housing grant from 50,000 to $55,000.  PVAs are some of the highest users of this particular grant.  It provides much needed assistance to veterans with severe service-connected disabilities who wish to purchase a home.
    In accordance with recommendations of the independent budget, we would also like to recommend that an additional change be made to this grant program.  As the housing market has continued to boom, these grants have not kept pace.  Without annual adjustment to the grants, inflation will continue to erode the purchasing power of them.  PVA recommends that Congress amend this legislation to include an automatic annual adjustment indexed to the rising cost of inflation.
    PVA also supports the draft legislation that would authorize the VA to provide adaptive housing assistance to disabled veterans residing temporarily at the residence of their parent or siblings.  Without this assistance, many veterans are forced to prolong their stay in a VA medical center because they have no accessible home to go to.  
    Finally, PVA supports proposed legislation that would require the DOL to establish professional qualifications for DVOP specialists and LVER staff.  These improvements can only ensure that veterans get the best quality employment service available to them.
    Mr. Chairman and Ranking Member Herseth, I would like to thank you for the opportunity to testify here today, and I am happy to answer any questions that you might have.
    Mr. Boozman.  Thank you.

    [The statement of Carl Blake appears on p. 45]

    Mr. Boozman.  Ms. Fryar.

STATEMENT OF DEBORAH KLINE FRYAR

    Ms. Fryar.  Mr. Chairman and distinguished members of the Subcommittee, the National Military Family Association appreciates your interest in the families of veterans, especially the families of servicemembers who have been disabled with injuries.  We are grateful to the Subcommittee for this opportunity to express our views concerning the needs of those families and to comment on the proposed legislation under discussion today.
    NMFA asserts that behind every wounded servicemember is a wounded family.  In the past, most benefit programs offered by the Department of Defense and the Department of Veterans Affairs have regarded the servicemember's family as only his or her spouse and children.  Now, however, it is not unusual to see the parents and siblings of a single servicemember stepping up to the plate to care for their wounded loved one.  Almost 50 percent of the force today is single.  As more single servicemembers are wounded, their parents and siblings must take on the task of helping their son, daughter, brother or sister through the recovery process.
    To serve all wounded servicemembers, we must also provide support to the parents of single servicemembers and their siblings as well.  Because the severely injured single servicemember cannot be go home to be on their own they go home to recuperate in the homes of their parents and siblings.  Faced with the imminent arrival of a servicemember home from the hospital, families feel they must make needed handicapped housing renovations in order to care for their injured loved one.
    These families are spending much of their own money to pay for needed modifications, often taking out personal loans.  Whether it is installing wheelchair ramps, adapting bathrooms with handicapped accessories, widening doorways or hallways, installing handrails or specialized rail products, the costs of making these adaptations is significant.  Added home renovation costs are often necessary at a time when the family can least afford the expenses.  The increased financial burden placed on the families to pay out of pocket for out-of-pocket housing adaptations requires immediate attention.
    The proposed adaptive housing bill this Subcommittee is reviewing to expand support for adaptive housing to parents of these servicemembers recognizes the role parents are assuming as caregivers of our severely injured heroes, especially in the period immediately after their release from the hospital.
    Currently, severely disabled servicemembers are eligible for one-time-use-only adaptive housing grants through the VA.  While this is a notable benefit, the modification is a one-time-use benefit, and funds not initially used cannot be reserved for use at a later time.
    NMFA would like to see this benefit converted to a multiuse benefit where the balance could be carried over.  Since many of the severely injured troops return to their parents homes temporarily before moving to their own homes, this would benefit them and give them the opportunity to carry any over any unused portion of the allowance.
    NMFA is also concerned about servicemembers in the transition to private sector employment continuing to face challenges.  Of prime importance is the translation in military training skills.  We also hear that some employment representatives hired to counsel wounded servicemembers are not experienced.  NMFA supports the establishment of professional qualifications for Disabled Veterans Outreach Program Specialists and Local Veterans Employment Representatives.
    Mr. Chairman, NMFA appreciates the opportunity to raise awareness of issues affecting families of wounded servicemembers.  We appreciate your leadership and sensitivity in addressing the financial needs for critical increases in adaptive housing.  Likewise, the proposed increases in the amount of assistance for certain disabled veterans that were for specifically adaptive housing would be invaluable and keep pace with today's increased construction costs.
    And finally, your awareness of the need to hire qualified individuals to work as Local Veterans Employment Representatives will go a long way in assisting wounded servicemembers in coming years.  Thank you.
 
    [The statement of Debbie Fryar appears on p. 57]

    Mr. Boozman.  Thank you, Ms. Fryar.  I think your testimony did a very good job of elaborating on some of the challenges that the men and women face as they come back and get acclimated -- not only them, but their families -- in trying to return to life.
    And yet I am an optometrist, an eye doctor.  And I used to work with people that had severe visual impairments, and the reality is, we live in a sighted world.  And so if you can get people where they can just read a letter and be able to see a price tag or something like that, it is a big deal.  It makes a lot of difference.
    And again, you know, those are the things we would like to be able to do -- fix things so that these individuals can get along as best they can.
    John, I went to the University of Arkansas and we are really very proud of you.
    I don't think you all realize the program that John was a part of.  How many national championships did you all win during your years at Arkansas?
    Mr. Register.  Mr. Chairman, I wasn't aware that you were a Arkansas graduate.  We won four national championships all four years I was at the University.  I think we have a total of 38 national championships since 1984.
    Mr. Boozman.  So John is really one of the elite members in the track sphere.  So we are really very, very proud of you.
    Let me ask you, can you kind of describe for us how you think the current VA sports programs will encourage more disabled veterans to participate in sports and for some to compete in the Paralympic sports programs?  You are a guy who was a world class athlete.  Kind of describe a little bit more about what the program did for you.
    Mr. Register.  Well, the program that -- for myself, I really came through a different track and got involved with veterans programs a little bit later on and mostly in my current job now.
    Mr. Boozman.  I was speaking more just the -- not the -- you know, just a different program but the same type of thing.
    Mr. Register.  I see a parallel track, and the testimony that was presented here -- by my colleagues here is that the sports programs really impact the whole person, getting the serviceman back on track.
    And we live in a sports society.  You know, we try and have different analogies for sports as it concerns business and employment, and we use these analogies in the boardroom.  At the same time, we can use these same analogies for supporting these servicemembers who come back.
    They are trying to look for something.  What makes me a part of society again?  Am I still -- as I said earlier, am I still that father?  Am I still that kid?  How do I reacclimate when I come back in?  And that is really where I see the partnership, again, between Veterans Affairs and the United States Olympic Committee because we all recognize how valuable sport is, especially for the disabled athlete's reacclimating and for family members to come back in.  Because anybody who touches the Olympics rings can identify with that phenomenally fast, able-bodied athlete.
    But, sir, everybody has somebody in their family that might be visually impaired or have an amputation or may be spinal cord disabled or something that affects their whole person.  So we want to bring that back to them.
    I think that Wheelchair Games and the Disabled American Veterans in the winter sports clinics are a great conduit to bring that wholistic approach back.
    Mr. Boozman.  Thank you.  The DAV and PVA suggested placing the special events office in the VHA.  Would you care to explain your reasoning for us a little more about this, why you want to do that?
    Mr. Lawrence.  My understanding is the focus -- well, it is a rehabilitative event, and the focus should be on rehabilitation per the servicemembers that are in attendance there.  And -- well, I haven't been personally involved, and I understand simply that the focus is, with its being under the Public Affairs Office, that the focus hasn't been on rehabilitation as much as it probably should be.
    And the Public Affairs Office certainly has a role to play.  But I think if the rehabilitation and the benefits are provided, that the public affairs issues will go along with it.  But that should be the primary focus.
    Mr. Blake.  Mr. Chairman, I would like to add a whole lot more than what Mr. Lawrence said.
    Other than that, the overall mission of these games ultimately is the rehabilitation, that Mr. Register talked about, holistically of that person who is disabled.  The Public Affairs Office doesn't really have any role in a rehabilitative mission of the VA.  So it just only follows, from our perspective, that VHA should manage it and that Public Affairs could still have a role in kind of the marketing of the games and the getting the stories out.
    There are a lot of good things that are good, done through the Public Affairs Office, but ultimately, it focuses on the veterans' being able to maximize their independence and become better citizens and be able to function better, to trust in themselves and understand that there are really no limitations, even with a disability, as long as they are willing to move forward.  And that is all wrapped into the mission of the rehabilitative therapy portion of the VHA, not so much Public Affairs.
    Mr. Boozman.  Thank you.  
    Ms. Herseth.
    Ms. Herseth.  Thank you, Mr. Chairman.  I don't have any questions, just a couple of thoughts and observations.
    Just last night, late, after votes, I went to see Murderball, the new movie that maybe some of you have seen, much anticipated and a terrific story of a number of young men who have suffered terrible accidents or illnesses who clearly have used quadiprlegic rugby as a rehabilitative tool for them, not only physically, but I believe emotionally as well.
    And so I take the point that Mr. Blake and Mr. Lawrence make.  But I also think that there probably is a dual role, the primary role of the rehabilitative therapy that the sports program would provide, but then also a dual role at some point with Public Affairs.  Even this movie sort of captured how far these individuals have come and the public support that they received at the Paralympic and World Championship.
    So I appreciate the point that you make there and certainly recognize there is a role for each department in promoting the sports programs that can serve for rehabilitation for our severely disabled veterans.
    At the end of this movie, a number of the athletes are actually making presentations to the men and women returning from Iraq and Afghanistan, at Walter Reed Hospital, to gauge their interest in participating in similar programs.
    And, Ms. Fryar, I appreciate what you share with us today in light of the servicemembers who are coming home, many of them single, many without children of their own yet and their need to live, particularly after they return from the hospital, with parents, other relatives, and the flexibility that we clearly need in the adaptive housing program to meet these types of unique needs that anyone may face.
    So keeping up with sort of changing times, I appreciate the perspective that you offer today and would just also like to echo the Chairman's appreciation and acknowledgment of your success in the work that you do, Mr. Register, for our servicemen and -women and what you have done with the Olympic Committee.  Thank you very much.
    Mr. Boozman.  Thank you.  I thank all of you very much for your testimony.  We appreciate the input on these bills.
    Mr. Boozman.  Our next panel consists of Mr. John Lopez, Chairman of the Association for Service Disabled Veterans; Mr. Joe Sharpe, Deputy Director of the American Legion's Economic Commission; and Mr. Richard Weidman, Director of Government Relations for Vietnam Veterans of America.

STATEMENTS OF JOHN K. LOPEZ, CHAIRMAN, ASSOCIATION 
    FOR SERVICE DISABLED VETERANS; JOSEPH C. SHARPE,
    JR., DEPUTY DIRECTOR, ECONOMIC COMMISSION, THE
    AMERICAN LEGION; AND RICHARD WEIDMAN, GOVERN-
    MENT RELATIONS DIRECTOR, VIETNAM VETERANS OF
    AMERICA 

    Mr. Boozman.  John, would you please lead us off?



STATEMENT OF JOHN K. LOPEZ  

    Mr. Lopez.  Good afternoon, Members.  I would like to thank you for your kind invitation to present the views of the Association for Service Disabled Veterans regarding important matters before the Committee.
    Without objection, I will summarize my testimony and submit my full statement for the record.
    The 25 million veterans of our Nation, including 10 million mothers, 23 million wives, 20 million daughters, and 17 million granddaughters who are all emotionally, economically and legal stakeholders in the programs that you have fostered in entrepreneurial legislation.
    Mr. Lopez.  Too often we forget that the procurement actions, even the support of entrepreneurial programs, impacts the family, not only the individual veteran; its impact is much greater than the number of our service-connected disabled veterans.
    Again, I would like to thank the Chairman and Ranking Members of the Committee and Subcommittees, for the compassionate and responsible leadership that they have demonstrated in the development of Veterans' Entrepreneurship.
    H.R. 3082, the Veteran Owned Small Business Promotion Act of 2005, is a splendid example of the Committee's concern and focus in responding to the veteran need for rehabilitation and transition assistance.  H.R. 3082 gives specific authority to the Department of Veterans' Affairs to accept direct responsibility for the provision of benefit to the veteran, and especially the service-disabled veteran.  It puts the task to that agency specifically established for the purpose of serving those who bore the battle.
    H.R. 3082 also puts focus on a more direct and specific course of action for the United States Department of Veterans' Affairs efforts.  As we have experienced with Public Law 160-50 and Public Law 108-183, the legislated intent of this U.S. Congress has been variously interpreted by regulators due to the necessity for inserting and parsing of the required language, statements, and references of existing regulations and public laws.
    H.R. 3082 is a welcomed clarification of the resolve of the Committee to clearly state the public willingness to assist in the rehabilitation of our Nation's veterans.  H.R. 3082 also clarifies the misconception that Veterans Entrepreneurship, and the proposed act, is a socioeconomic development initiative or a cultural inequity panacea.  It is not.  H.R. 3082 is a specified contribution to the continuing obligation of our Nation to rehabilitate those veterans that sacrifice for our Nation's security and prosperity.
    There is no justification for requiring that service-disabled veteran indemnification and rehabilitation be adjusted to the conduct of any other government program.
    The service-disabled veteran's government service-incurred misery is unique.  Future generations of American military heroes will be forever indebted to the 106th, 107th, 108th and 109th Congress -- and especially the 109th Congress -- for their commitment to honor and support those killed, maimed, and tortured in the continuing struggle to provide security and prosperity for the people of the world.
    Those Iraqi-Afghanistan veterans returning from harm's way are experiencing a different outreach from others who have served, and that is a tribute to the consciences of the Members of the U.S. Congress.
    We ask that the Congress enact H.R. 3082 expeditiously, and that the Congress stay acutely engaged in a process of verifying that the intent of the legislation is implemented.
    Thank you for your attention.  I would be pleased to answer any questions.
    Mr. Boozman.  Thank you.

    [The statement of John K. Lopez appears on p. 65]

    Mr. Boozman.  Mr. Sharpe.

STATEMENT OF JOSEPH C. SHARPE, JR. 

    Mr. Sharpe.  Mr. Chairman and members of the Subcommittee, I appreciate this opportunity to share the views of American Legion's six benefits-related legislative initiatives brought before us today; the first being a draft bill to authorize the Secretary of Labor to establish professional qualifications for disabled veterans' outreach program specialists and local veterans' employment representatives.
    Every year 250,000 servicemembers are discharged from the Armed Forces.  These former service personnel are actively seeking either employment or the continuation of former or vocational education.  The Veterans Employment and Training Service offers transitioning veterans the assistance they need to obtain employment.
    The American Legion believes with the dramatic increase in the number of veterans from the wars in Iraq and Afghanistan being discharged, and the unacceptable unemployment rates among female veterans and all veterans between the ages of 20 and 24, the roles and professionalism of the DVOPS and LVERs in assisting all transitioning veterans to the civilian workforce are increasingly important.
    Furthermore, the American Legion believes there is a direct correlation between the successful placement of veterans into training programs and job placement with having professional qualifications standards set for DVOPS and LVERs.  Therefore, the American Legion supports this bill.
    In addition, the American Legion strongly supports the hiring requirement of both DVOPS and LVERs to be veterans.  The American Legion believes that the unique experience of the military service serves as a benefit to veterans who are employed as DVOPS and LVERs.  That shared experience enables DVOPS and LVERs to better understand the needs of the veterans seeking assistance, and ultimately results in more timely and efficient assistance.
    H.R. 3082, the Veteran Owned Small Business Promotion Act of 2005.  The American Legion views small businesses as the backbone of American economy.  It is the driving force behind America's past economic growth, and will continue to be a major factor as we move into the future.
    Presently, more than 9 out of every 10 businesses are small firms which produce almost one-half of the gross national product.  The veterans' benefits have always included assistance in creating and operating veteran-owned small businesses.  This assistance dates back to the Serviceman's Readjustment Act of 1944.  The American Legion supports this bill, as it would add value to the nature of military service and transfers that service into the Federal marketplace.
    H.R. 1773, a bill to make permanent an existing pilot program of direct home loans to Native American veterans, and for other purposes.  The American Legion supports the purpose of this loan program to give Native American veterans an opportunity to purchase, construct, or renovate homes on trust lands, and applauds the success this program has had in ensuring that qualified Native American veterans have the opportunity to purchase homes on trust land.  By making this program permanent, and with continued outreach efforts by the VA to the Native American veteran community, the number of home loans made to Native Americans will continue to increase in the coming years.
    The other three draft benefit bills consist of, one, establishment of an Office of National Disabled Veterans Sports Programs and Special Events within VA that would encourage and facilitate disabled veterans in participating in sporting events.
    The second draft bill will increase the amount of assistance for certain disabled veterans for specially adapted housing.
    And lastly, a draft bill to authorize the Secretary of the VA to provide adaptive housing assistance to disabled veterans residing temporarily in housing owned by a parent or sibling.
    The American Legion is supportive of all three bills that have a goal to enhance the quality of life for all our Nation's disabled veterans.
    Mr. Chairman, this concludes my statement.  I appreciate the opportunity to present the American Legion's views on these important and timely topics.
    Mr. Boozman.  Thank you, Mr. Sharpe.
 
    [The statement of Joseph Sharpe, Jr. appears on p. 69]
    Mr. Boozman.  Mr. Weidman.

STATEMENT OF RICHARD WEIDMAN

    Mr. Weidman.  Mr. Chairman, thank you for your leadership in holding this hearing today.  And thank you, Congresswoman Herseth, for your role in this and many other strong efforts of this Subcommittee.
    The VA strongly favors theincrease in the assistance amount for specially adapted housing, and the draft bill that would allow adaptive housing assistance for temporary housing.  Both are needed.  We strongly encourage you, however, to consult with the National Builders Associations and other trademark -- or trade associations to find out some way and some mechanism for indexing this for not only today but for the future, because building materials are going up at a faster rate than anyone had ever anticipated, and that is why we had a projected cost of a $1 billion hospital in Denver recently.
    VVA is very much in favor of establishing professional qualifications for DVOPS and LVERs.  However, there has to be something in that bill that will stipulate that the State workforce development agencies pay people commensurate with their experience, with their degrees, and with their performance.  What you have now is a situation when the DVOP programs were created it was built into Title 38, chapter 41, that they could not be paid less than an entry level of an employment specialist by that workforce development agency.  That floor has become the ceiling, and that is why you have 28,000 a year -- DVOPS earning 28,000 a year.  The only way they could do it is if they are military retirees.  They are -- obviously DVOPS are disabled vets in addition, and in many cases their spouse works at a reasonably lucrative occupation.
    The statistics you cited about DVOPS and LVERs making $100,000 a year are the rare exception.  Those are people that are put into a DVOP or LVER slot as the State veterans program administrator for the workforce development agency.  It is not the online DVOP.  And you can look at that by looking at the medium wage of both DVOPS and LVERs across the country.  They are, by and large, paid too low.  That is why the turnover rate of LVERs is about 15 percent -- at least it was the last time I asked for those figures.  And the turnover rates for DVOPS was 17 or 18 percent the last time I asked for those figures.  And I think you will find that pretty much unchanged, because these are very difficult jobs.  It is, in fact, possible with the combined efforts of the National Veterans Employment and TrainingInstitute which USC and VVS contracts with the University of Colorado at Denver, to enhance the training having to do with special disabilities.
    When I was, in a former life, a State veteran program administrator -- and I did not make six figures at that time, I can assure you -- first we dealt with visually impaired and blind, with the assistance of the Blind Veterans Association; and then we used at that time the Eastern Paralyzed Veterans training people, getting people with profound disabilities and created a new title -- we used to call them ER, veterans employment counsel.  It was a master's degree position in the State of New York Department of Labor, which still exists today.  So it is possible, but there have to be some quality checks on it, and it has to be related to productivity.
    VVA strongly agrees with H.R. 1773, the Native American housing law, as written.  It is a significant problem in all of the reserve territories to get credit for any purpose, and certainly for this one.
    We also certainly favor H.R. 3082.  And thank you very much for your leadership in this area for the Veteran Owned Small Business Promotion Act of 2005.  We would, however, point out that there is no reason -- at least to be considered, if not in this legislation but in a future legislation to follow -- of increasing the requirement from 3 percent to 5 percent.  It is useful to know that H.R. 5668, which was passed unanimously by the House of Representatives in July of 1999 and became the basis for Public Law 106-50, the goal for service-connected disabled veterans was 5 percent.  Was 5 percent.  And in order to get legislation through that Congress, we finally dropped to 3 percent in order to get it through in a timely way and move forward with a view, then, that we would go back to the 5 percent.
    Secondly, it is, according to the SBA, it is more than 20 percent of small businesses that are veteran-owned.  And so 15 percent across the board at VA would be appropriate.
    In regard to the provision of the 10-year delimiting date for the spouse of a deceased veteran who died in service-connected conditions, we would urge you strongly to reconsider that, because 10 years may be too short.  If a Gulf War veteran returns home today and they have small children -- gets married and they start a business and they have small children, 3 or 4 years from now and he or she dies, it is going to be a lot longer than 10 years before -- they are going to need to support the children.  So we strongly urge you to reconsider that 10-year delimiting date for the spouse.
    And a further key issue in this regard is why the delay until the end of fiscal year 2006?  If it is worth doing, and this shouldn't be different than -- run-up to this has already been done with Executive Order 13360 at the VA, with the efforts of the senior officials who is leading this effort at VA, and we see no reason why it could not be implemented beginning October 1, calendar year 2005, or the first day of fiscal year 2006, not the last day of fiscal year 2006.
    Mr. Chairman, I thank you very much.  I see my time is over, and I appreciate the opportunity to present our views this morning, and would be happy to answer any questions.  Thank you.
 
    [The statement of Richard Weidman appears on p. 73]

    Mr. Boozman.  Thank you, and I thank all of the panel.
    One thing, Mr. Weidman, I think what we were trying to do is -- not implying that we had to -- trying to illustrate that we had a wide salary range, not trying to imply that most were on the upper end of the scale by any means; in fact, I suspect that many more are on the lower end of the scale.  But that is what we were trying to illustrate; that because of the wide discrepancy in various States, we are trying to link that with, as you have testified to, some sort of an educational thing, a career qualification, and possibly performance.
    We are all told that restricting competition amongst suppliers will increase the constant supplies of especially health care-related items, things of that nature.  How do you all respond to that when that comes up?  Take turns.
    Mr. Weidman.  I have always wanted to say I defer to my distinguished colleague on my far left.
    Mr. Lopez.  There is no evidence to support that.  I have never seen a study that supports that kind of a feeling that restricting competition -- you are not really restricting competition, you are just limiting it to a specific number of people first; and then if not enough individuals respond, then it is back in the pool, back into the marketplace.  So that is not really what happens, and I think the procurement people know that. 
    I think most procurement policies by the contracting officers are based on their own insecurities in dealing with service-disabled veterans and an unwillingness to offer them opportunities because it may reflect on their own performance.
    Mr. Weidman.  Mr. Chairman, I would agree that there is no study that we know of that would indicate one way or another about that.  But I will tell you this:  As you look at the GAO reports over the years there, it is used as an excuse for contracting officers and decision makers not to use -- to contract with service-connected disabled-owned businesses; when, in fact, if you look at those same, be they medical centers, those same facilities, et cetera, you will find that they are rife with what we call �Uncle Charlie� contracts.  In other words, sweetheart deals with contractors in the local area.
    And there is no mechanism to go back and look at that, and there is no strong systematic effort to look at that.  And while frankly, the PBA, we don't think in many cases we are getting the bang for the taxpayer bucks for many goods and services that are purchased by the VA, it is certainly not the cause of use of specific contracting authorities, any of them, and certainly not service-disabled veteran-owned business.
    Mr. Boozman.  One other question, Mr. Weidman.  You called the unemployment a sham.  Why is that?
    Mr. Weidman.  When this was first proposed under the previous administration, I termed it -- having been a philosophy major at Colgate University, my father said, what are you going to do with that?  Nobody is going to pay you to sit around and think.  And it was just one more thing that my father was absolutely correct on.  Nobody did.
    Anyway, it is commission of the classic posthoc fallacy.  In other words, because something happened after this point in time, it must be due to something that happened prior to that.  And there is no relation one with the other.
    People come in, and a scientist or a social scientist that the VETS brought in from the University of Maryland was there to explain this over at the VFW hall, and I confirmed it with him.  And he seemed like a decent and intellectually honest fellow, and he admitted there was not anything whatsoever.  And so if we wanted to change it, and if you look at what the switchover actually was in program year 2002, bam, it suddenly looks like their productivity went up 50 percent.  Jeepers, boy, they are really doing a great job now.
    Well, their productivity didn't go up.  They had people's Social Security number because they wanted a one-stop center to register for their unemployment insurance.  And once they had, they said you better go over here and register.  So they had their name.  So what they do is, they consult the unemployment insurance rolls, which means they got a job.  They may never have been back to that center again, but the fact that they got a job, they are counting that as an entered employment and a success.  And that is what at VVA we believe that it is a sham, Mr. Chairman, and a classic example of a post hoc ergo fallacy.
    If we are going to measure placements, then let us measure placements.  If we are going to measure entered employment -- which used to be that you have to demonstrate that you truly delivered a supported service of some sort, whether it is job counseling or whether it is going over delivery of labor market information about who is hiring within that community, and what kinds of jobs those companies were hiring, and show the individual how to follow up, and check on it later.  That is a supportive service, and not just the fact that they wandered by the office.
    Mr. Boozman.  Ms. Herseth.
    Ms. Herseth.  Thank you, Mr. Chairman.  I appreciate the testimony of the entire panel today.
    Just one question.  As we move forward with H.R. 3082, and many members supported the bill, but some concerns as we look forward to negotiating what is feasible in the short term versus the objectives in the long term.
    Mr. Lopez or Mr. Weidman, would you with respect to H.R. 3082, would you support, in place of an immediate 9 percent requirement for veteran-owned small businesses, a more graduated requirement initiative for assistance, perhaps starting at 5 percent -- which historically as you point out is where we were before it was negotiated back through the Senate, back in 1999 -- but starting at 5 percent and working up to 9 percent over a specified number of years?
    Mr. Lopez.  My personal feeling is low standards, low performance.  You tell them a goal of 3, they are going to do 1.  You tell them 1, you might as well not have a program.  I think if we keep it at 9, we may get 3, and that is our goal.
    And I am kind of being facetious, but the fact remains that they are not motivated to use disabled veterans because they have such a lack of faith in their capability.  That is a cultural problem we have in this country.  It is especially true when one is responsible for making financial awards.
    So I would not support it.  But obviously, in a practical sense, we will take what we -- nah, I shouldn't say that.  I ain't gonna take what we -- sorry.
    Mr. Weidman.  May I follow up on that?
    Ms. Herseth.  Please.
    Mr. Weidman.  The 5 percent in 1999 was for service-disabled vets, not for all vets.  And the poison pill that they asked us to swallow on the other side of the Hill was 5 percent for all vets.  And we knew they could get 5 percent for all vets because there were probably that many doing business with the VA, if they counted.  The VA has had in place now for 2 years, a 7 percent goal for all veteran business that was established internally by the Secretary's order.  So they had 2 years to gear up to reach 7 percent, and I see no reason not to make them go ahead and gear up to reach 9 percent.
    There has to be some kind of sanctions, there has to be some kind of accountability right across the board for how you spend taxpayer dollars and how well you meet the mission, and there has been all too little of that across the board.
    As to the 5 percent that we are suggesting for service-disabled veteran business owners, it has come to our attention now, and we have discussed it with Deputy Secretary Gordon Mansfield, that it looks like they have started to move up.  What they are doing is taking people who had preexisting contracts under 8(a) and then finding out that they are service-disabled veterans and counting them as service-disabled veterans, too.  So if the goal were 5 percent, we actually would get for real additional 3 percent veterans that got contracts because of service-disabled veterans, ifthat makes any senses, ma'am.
    So we have offered, we continue to work with Mr. Mansfield, we continue to work with Scott Dennison, and we continue to work with Dr. Erlich, because it is VA Veterans' Health Administration where the -- and Fred Downs, who is now the acquisition director for the Veterans' Health Administration, to try to get it moving.
    But there is a long way to go in these overall goals.  And as Mr. Lopez noted, constant oversight by this Committee is what will get us there.  And we are grateful to you for everything you have done heretofore, and would like to express gratitude for your long-term commitment that we know that both you and the Chairman have on this issue.
    Ms. Herseth.  Thank you both for your well-informed opinions in response to that question and what we think is feasible and what the internal objectives are and what we know is the need for our continued oversight.
    So, Mr. Chairman, I have no further questions, and I yield back.
    Mr. Boozman.  Thank you, Ms. Herseth.
    Thanks to the panel for your testimony; we appreciate it, and it was very informative.
    Mr. Boozman.  Our next panel consists of Mr. John McWilliam, with the Veterans' Employment and Training Service; Keith Pedigo and Gail Wegner with the Department of Veterans' Affairs.

STATEMENTS OF JOHN M. McWILLIAM, DEPUTY ASSISTANT
    SECRETARY FOR OPERATIONS AND MANAGEMENT, VET-
    ERANS' EMPLOYMENT AND TRAINING SERVICE, DEPART-
    MENT OF LABOR; KEITH PEDIGO, DIRECTOR, LOAN GUAR-
    ANTY SERVICE, VETERANS' BENEFITS ADMINISTRATION,
    ACCOMPANIED BY:  GAIL WEGNER, DEPUTY DIRECTOR, 
    OFFICE OF SMALL AND DISADVANTAGED BUSINESS 
    UTILIZATION, DEPARTMENT OF VETERANS' AFFAIRS 

    Mr. Boozman.  Let's start out with John.

STATEMENT OF JOHN M. McWILLIAM 

    Mr. McWilliam.  Thank you, Mr. Chairman.
    Chairman Boozman, Ranking Member Herseth, it is my honor to be here today before the Committee to present the views of the Department of Labor on several bills and draft bills regarding the draft bill authorizing the Secretary of Labor to establish professional qualifications for DVOPS and LVERs.  This bill does require the Secretary to establish professional qualifications for the employment and continued employment of those veterans' representatives.
    The Jobs for Veterans Act, Public Law 108-288, requires that States employ, to the maximum extent possible, qualified disabled veterans to serve as DVOPS, and qualified veterans or other eligible persons to serve as LVERs, but does not set specific standards for establishing the qualifications of candidates for these positions.
    We agree that establishing qualification standards for the DVOPS and LVERs could enhance services to veterans and improve their employment outcomes.  
However, in order to better understand the nature and extent of these professional standards, including how we would go about implementing them, we believe a thorough review of this issue is required.  Therefore, our approach is consistent with the human capital reforms in the President's Management Agenda to first initiate a workforce analysis to identify the specific competencies needed by the DVOPS and LVERs, to identify existing skill gaps, and the options for closing those gaps.
    DVOPS and LVERs are State employees whose employment standards are currently established by State workforce agencies.  The establishment of national employment standards in these programs could provide a common level of standardization among the States by establishing for the first time competency models to guide their workforce activities.  We would want to involve our stakeholders at the national and State levels on the front end of this initiative to ensure a workable program.
    On the remaining five bills and draft bills, the Department of Labor generally supports appropriate legislation that benefits veterans, but respectfully refers to the Department of Veterans' Affairs.
    Mr. Chairman, this concludes my testimony.  I will be pleased to answer any questions.
    Mr. Boozman.  Thank you very much.

    [The statement of John M. McWilliam appears on p. 79]

    Mr. Boozman.  Mr. Pedigo.

STATEMENT OF KEITH PEDIGO

    Mr. Pedigo.  Thank you, Mr. Chairman, and members of the Subcommittee.  Thank you for the opportunity to testify today to present the views of the Department of Veterans' Affairs on six bills of great interest to our Nation's veterans.  I have with me today Ms. Gail Wegner, Deputy Director of the Office of Small and Disadvantaged Business Utilization, Department of Veterans' Affairs.
    The first bill I will discuss, Mr. Chairman, is H.R. 1773, which would make several amendments to the VA Native American direct loan program.  Under this program, qualified Native American veterans living on trust land may receive direct housing loans from VA.
    First, this bill would make the Native American direct loan program permanent.  Because of some constitutional concerns that the Department of Justice has expressed, the VA would like to work with the Committee staff and Justice to address those issues and develop legislation that the administration can support.
    Mr. Chairman, VA supports the provisions of the bill that would tie the maximum loan to the Freddie Mac conventional conforming loan limit and extend eligibility to a veteran who is not a Native American but who is married to a Native American nonveteran.
    The next item I will address, Mr. Chairman, is H.R. 3082, the Veteran Owned Small Business Promotion Act of 2005.  This bill would establish a set-aside tool for veteran-owned small businesses and enable surviving spouses of veterans to participate in the Federal marketplace after the loss of their loved one, and provide VA with authority to choose veterans first when filling their requirements for our Department.
    H.R. 3082, Mr. Chairman, proposes to establish a 9 percent procurement requirement for the Department of Veterans' Affairs for both prime contracting and subcontracting.  While the administration supports expanding opportunities for veterans' small businesses in Federal contracting through appropriate goals and incentives, the administration does not support mandating that a certain percentage of contract dollars go to certain businesses.
    Mr. Chairman, you also requested our views on a draft bill that would increase the maximum specially adapted housing grants authorized by sections 2101 (a) and (b) of Title 38, United States Code, to 55,000 and $12,000 respectively.  VA favors enactment of this measure.
    The next draft bill, Mr. Chairman, would authorize the Secretary to provide additional assistance to a veteran who is temporarily residing in a home owned by the veteran's parent or sibling.  Veterans eligible under section 2101(a) could get up to $10,000, and veterans eligible under section 2101(b) up to $2,000.  If the veteran subsequently receives a grant under section 2101 for a permanent residence, the amount of the assistance received under this proposed authority would be deducted from the maximum grant otherwise authorized by section 2102.
    The VA believes the intent of this draft bill is laudable, and has no objection to the concept of the legislation.  Before VA can endorse this or any similar legislation, however, we believe more study of this proposal is required and a number of practical issues need to be resolved.
    For example, the veteran would have no ownership interest in the temporary residence and would be at the mercy of the parent or sibling to be permitted to continue to occupy the residence.  Should the owner need or desire to sell the residence, or the veteran and relative have a falling out, the veteran could be forced to vacate the residence prematurely and lose the benefit of this one-time assistance.
    Also, due to the high cost of construction, many homes cannot be adequately adapted, even as a temporary residence, on the amount proposed for the new grant.  Likewise,when a veteran who has received such temporary assistance acquires a permanent residence, the grant for that home would be reduced by the amount of such initial grant.  Reduction in the final grant might adversely affect the affordability of a permanent adapted home for some veterans.  Thus, we need further study to ensure that we are not converting this important program into one that supplies two inadequate grants.
    We would be pleased to meet with the Committee staff to discuss our concerns in greater detail.
    The final draft bill would establish the Office of National Disabled Veterans Sports Programs and Special Events in VA to administer and facilitate participation in sports programs for disabled veterans and sponsor such programs for disabled veterans conducted by other groups.  VA opposes this bill.  It would create a redundant office with too narrow a mission.
    Since 2000, the Office of National Programs and Special Events has been responsible for managing and posting VA's National Rehabilitative Special Events, which focus on rehabilitation, health promotion, and disease prevention by encouraging all veterans to lead healthy active lifestyles.  Some of these events are not sports programs, and many of the Golden Age games participants are not disabled veterans.
    VA does not believe that there is a need to create another office that would be limited to working solely on sports programs involving disabled veterans.
    This concludes my statement, Mr. Chairman, and I would be pleased to respond to any questions that you or members of the Subcommittee may have.
 
    [The statement of Keith Pedigo appears on p. 82]

    Mr. Boozman.  Ms. Wegner.
    Ms. Wegner.  I don't have a statement.
    Mr. Boozman.  You are off the hook then.
    Ms. Wegner.  Right.
    Mr. Boozman.  Do we know, how many -- if you just took all of the small businesses in general, do we know how many are veteran-owned?
    Ms. Wegner.  We know published statistics about veteran-owned.  The frequently published statistics are from the Bureau of Census, based on an extrapolation of a small sample that was studied back in the early 1990s.
    Using that extrapolation, Census says that they believe that there are between 4 and 5-1/2 million veteran-owned small businesses today.  We haven't found all of those veteran-owned businesses.  We know about 80,000 veteran-owned businesses, but that is it.
    Mr. Boozman.  How many are in your database?
    Ms. Wegner.  In our database, on the public database there are about 9,000 businesses.  We have an internal database of those that have been contacted and asked to register on our database, and that gets up to about 25,000 businesses on the internal level where they have not answered those four gateway questions that they are asked to address.  Those are questions to verify that you are a veteran under the definition of the law, verify your service-connected disability, and that you meet Federal size standards.
    Mr. Boozman.  So there is quite a discrepancy in what the Census Bureau says and what you are showing.  How many small businesses are there total; do we know that?
    Ms. Wegner.  The Small Business Administration has those figures, and they estimate that there are about 18 to 20 million small businesses total, but those are combined.  They are not all sustainable businesses; some are casual businesses, those people that do part time and don't make a living off of it.
    Mr. Boozman.  So the Census Bureau has kind of a conservative number based on their figures.  So again, I guess the problem I have on this, what is the VA at now as far as percentage today?
    Ms. Wegner.  With veterans?
    Mr. Boozman.  Yes, veterans only.
    Ms. Wegner.  For fiscal year 2004, the last year we had data, we were at 4.43 percent of our procurement dollars.  That equates to $367 million that we invested with veterans last year.
    Mr. Boozman.  So, again, I guess one could argue that we are not at the average without any real push.  If the average amount of businesses out there are 10 to 20 percent, then I guess with those kind of figures it doesn't seem hard at all, with an effort to give preference, that we could get our numbers up quite a bit.
    Ms. Wegner.  The 4 to 5-1/2 million estimate was based upon standard business lines.  But distribution of those businesses varied across industry lines. There are a lot of industries that the Federal Government does not purchase goods and services from.
    Mr. Boozman.  So you feel that we are doing everything we can do to identify and do the job that we need to do to get the veteran preferences, as of the intent of the law?
    Ms. Wegner.  That is a tough question.  Are we doing everything that we can do?  I wouldn't say that the answer to that is yes. No.  But I think there is more that we can do.  I think we can work very much more cooperatively with our partners, with SBA and other agencies, to get the word out.  We simply have not done that yet.
    Mr. Boozman.  Again, I think the spirit of the law was to get it done.  And the problem that we face is, it is very difficult to get things done with agencies if we don't make them do it.  And that is the dilemma we face.  It is hard for us to get the other agencies to fall in line if we can't have you as a great model to say, hey, you can do this without the world falling apart.  And so like I said, that is the dilemma that we face, trying to get it done without the mandate.
    Several of the witnesses suggest moving the Office of Special Events to VHA.  Can you all comment on that?
    Mr. Pedigo.  Yes, Mr. Chairman.  Of course we support the idea of disabled veterans and other veterans being able to participate in a broad array of special events.  Consequently, in 2000 we created the Office of National Programs and Special Events in the Office of the Assistant Secretary for Public and Governmental Affairs.  And that program has a wide umbrella of events that it sponsors, such as the National Veterans' Wheelchair Games and the Winter Sports Clinic, to mention a few.
    We believe that creating this new office would be duplicative of what the VA is already doing, and would not add any significant value to the benefits the veterans receive.
    Mr. Boozman.  A couple of things.  In reading the VA testimony, I understand your comments that you made about diluting the benefit as far as fixing up the area, the homes, and things like that, and I think those kinds of things are valid, and I think we can work with you on those, and I think those are valid concerns.
    I don't really understand the rift in the family-type of argument:  There can be a breakup, and we have invested this and that.  I mean, I guess my attitude there is, so much of what we do can always draw that out -- you can do that with any VA owner or anything else.  Maybe you can do a VA loan if there is a divorce in the family.  I mean, like you say, I understand your testimony, I appreciate it.  That part of it I didn't really feel made a difference.
    Mr. Pedigo.  I understand that, sir.  We were simply trying to point out all of the potential ramifications of that proposed legislation.  We don't believe that veterans have a falling out with their siblings all that often, but it is a circumstance that could occur; and if it did occur, then the veteran would have lost the benefit that was provided to him or her.
    Mr. Boozman.  Ms. Herseth.
    Ms. Herseth.  Mr. Chairman, may I inquire of votes?
    If I don't get through all of my questions, I will just submit them for the record.  But let me just start.
    For you, Mr. Pedigo, thanks for your support of the Native American direct loan program, and I look forward to working with you in improving legislation to make it a successful program.
    I am curious.  Could you just elaborate a little bit on what the Department of Justice constitutional concerns are; do these relate to sovereignty issues?
    Mr. Pedigo.  I wish I could elaborate.  We haven't gotten a lot of feedback from the Department of Justice.  We did hear that they had these concerns.  We believe it may be focused on the fact that there may be some interpretation of law or the Constitution that would suggest that the broad umbrella of our Native American loan program, which includes Native American Indians, Alaskan Natives, Native Hawaiians, Natives from Guam, and the Natives of American Samoa may be too broad.  We believe it is possible that Justice believes that only Native American Indians really have a valid claim to the special benefit that this program would offer.
    But I am speculating a little bit there, and that is why we would like to meet with members of the Committee as well as the Department of Justice to get a clear understanding of what their concerns are, and hopefully come up with some solutions so that we can go forward with this proposal.
    Ms. Herseth.  Well, thank you.  I look forward to soon facilitating that kind of meeting so that we can both better understand what the constitutional concerns are there that have not been expressed as a pilot program.  And we are dealing with veterans first and foremost, so I appreciate you raising those concerns.  We will get those questions answered.
    For the record, just real quickly, onpage 3 of your written testimony, right before the text for H.R. 3082, the estimate for the savings, do we need to clarify here that it is a discretionary 10-year savings of approximately 2.3 million as opposed to 23 million -- I wish it were 23 million, and I will take that, but I think they may have estimated that it was 2 million savings over 2 years.
    Mr. Pedigo.  We will check that out, and if so, we will correct it for the record.
    Ms. Herseth.  Also, if you could provide us, the members of the Committee and staff, with a reaction -- I am going to ask one more question -- but with some assessment of the point that our witness today from NMFA suggested about making the adaptive grant a multigrant rather than a one-time grant.  I know that the current cap is 50, 000 average pay out there, the one-time payment is $49,500 or $49,900, but that may be because it is only a one-time use.
    And perhaps if it were a multiple use, the veteran would make certain decisions to integrate certain adaptations over time.  But we would like to get your feedback to the suggestion that was made, whether it is at 50,000 or increasing it to 55,000, what that may mean for flexibility for the veterans.
    And I do want to get a chance to pose a question to Mr. McWilliam.  I am pleased that you support improved qualification standards for the DVOPS and LVERs to improve overall service for veterans seeking employment.  As I understand your testimony, you don't support the draft bill authorizing the Secretary of Labor to establish those qualifications at this time, but you do mention a workforce analysis.  
    So is this initiative of workforce enhancement development analysis something that the Department of Labor could begin without legislation; and, if so, is it something that you would be interested in promoting it personally?
    Mr. McWilliam.  Ma'am, we are very interested in looking at qualifications for the veterans' representatives and pursuing that.  We are also looking into training that we are providing currently right now, and going through an annual update, looking at the training that is provided to them through the National Veterans Training Institute, which is the way that we provide professional -- I don't want to say certification, but professional training right now for the veterans' representations.
    Our concern is this is a very complex issue, and we have to work with all of the States and the District of Columbia.  There are many different personnel systems out there that would be affected by it, and we think it is just a very complex issue that needs a lot of study to make sure it can be implemented.
    Ms. Herseth.  Thank you.  I have no further questions, Mr. Chairman.
    Mr. Boozman.  Thanks to the panel.  And I do appreciate all of the hard work.  Don't misunderstand, I really do appreciate, as I know the rest of the Committee does, the hard work that you do on behalf of our veterans.  And we will be glad to work with you on these things and move forward.
    So, without objection, the Subcommittee stands adjourned.
 
    [Whereupon, at 4:30 p.m., the Subcommittee was adjourned.]

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>
</pre></body></html>
